Report No. D-2008-115               August 6, 2008




Status of Training Vehicles for U.S. Ground Forces
Deploying in Support of Operation Iraqi Freedom
Additional Information and Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

Suggestions for Audits
To suggest ideas for or to request future audits, contact the Office of the Deputy Inspector
General for Auditing at (703) 604-9142 (DSN 664-9142) or fax (703) 604-8932. Ideas
and requests can also be mailed to:

                       ODIG-AUD (ATTN: Audit Suggestions)
                       Department of Defense Inspector General
                       400 Army Navy Drive (Room 801)
                       Arlington, VA 22202-4704




Acronyms and Abbreviations
CENTCOM                       U.S. Central Command
CTC                           Combat Training Center
FORSCOM                       U.S. Army Forces Command
HMMWV                         High Mobility Multipurpose Wheeled Vehicle
JRTC                          Joint Readiness Training Center
NTC                           National Training Center
OIF                           Operation Iraqi Freedom
SINCGARS                      Single Channel Ground and Airborne Radio System
                                 INSPECTOR GENERAL
                                DEPARTMENT OF DEFENSE
                                  400 ARMY NAVY DRIVE
                             ARLINGTON. VIRGINIA 22202-2885




                                                                           AUG     6 llJU/5



MEMORANDUM FOR ARMY, DEPUTY CHIEF OF STA F, G-8
               COMMANDER U.S. ARMY FORCES COMMAND



SUBJECT: Status of Training Vehicles for U.S. Ground Forces Depl.oying in Support of
         Operation Iraq i reedorn (Report No. D-2008-115)

We are providing this report for your information and use. We considered your
comments in preparing the final report.

As request d by the Deputy Commanding General/Chief of Staff, U.S. Army Forces
Command, we revised our recommendation to appropriately reflect responsibilit.ies ill the
equipping process and clarify actions needed in re ponse to the recommendation.
Comments on the draft of (hi report conformed to the requirements of DoD
Directive 7650.3 and left no unre olved issue. Therefore we do not require any
additionai comments.

We apprceial., the courtesie ext .nded to the staff. PI ase direct questions to
tvk Timotby r"t Wimette at (703) 604-8876 (DSN 664-8876) or Ms. Melissa M. Quenl.·
at (703) 604-9283 (DSN 664-9283). The team members are listed inside the back covel.




                                     J sep R. Oliva, CPA
                                     A . ta t Inspector Genera I
                                     Readiness and Operations Support
                    Report No. D-2008-115 (Project No. D2007-D000LH-0108.001)
                                          August 6, 2008

               Results in Brief: Status of Training Vehicles
               for U.S. Ground Forces Deploying in Support
               of Operation Iraqi Freedom

What We Did                                         modernization of the prepositioned fleet at the
Our overall audit objective was to determine        Joint Readiness Training Center as it has done at
whether U.S. ground forces supporting               the National Training Center.
Operation Iraqi Freedom were receiving the
training necessary to meet operational              What We Recommend
requirements. Specifically for this project, we     We recommend that the Commander, U.S.
determined whether the training equipment at        Army Forces Command, in coordination with
Combat Training Centers was sufficient for          the Army, Deputy Chief of Staff, G-8, obtain
ground forces training in support of Operation      and deliver the remaining up-armored High
Iraqi Freedom.                                      Mobility Multipurpose Wheeled Vehicles to the
                                                    Joint Readiness Training Center to ensure the
What We Found                                       fleet of prepositioned vehicles is modernized for
Competing requirements for equipment in             units training to deploy in support of Operation
theater as well as units being reset for            Iraqi Freedom.
redeployment have created challenges for
Combat Training Centers. The National               Client Comments and Our
Training Center and the Joint Readiness             Response
Training Center have encountered challenges in      The Deputy Commander, U.S. Army Forces
obtaining theater-specific equipment such as        Command concurred with our recommendation
High Mobility Multipurpose Wheeled Vehicles         and asked for clarification. Based on these
for training. Despite these challenges, the         comments, we revised our recommendation to
Combat Training Centers have maintained             appropriately reflect the responsibilities of the
equipment and have taken additional steps to        Army organizations and to clarify the actions
make substitutions or have units bring their own    needed. Although not required to comment, the
equipment from home stations to ensure that         Army, Deputy Chief of Staff, G-8, also
levels of equipment were sufficient for training.   concurred with the recommendation. We do not
                                                    require any additional comments.
The Army has recognized issues with outdated
equipment, and it has taken steps to modernize
the prepositioned fleet of High Mobility
Multipurpose Wheeled Vehicles at the National
Training Center and Joint Readiness Training
Center. The Army completed modernization of
the prepositioned fleet at the National Training
Center in April 2008. To ensure the most
realistic and effective training for units
deploying in support of Operation Iraqi                 A Buffalo Stands By To Investigate a
Freedom, the Army must complete the                     Possible Explosive in Southern Iraq
                                                                Photo Courtesy of U.S. Army
                Report No. D-2008-115 (Project No. D2007-D000LH-0108.001)
                                      August 6, 2008


Recommendation Table
Client                           Recommendation               No Additional
                                 Requiring Comment            Comments Required
Commander, U.S. Army Forces                                   1.
Command
Table of Contents

Results in Brief                                                      i

Introduction                                                          1

       Objectives                                                     1
       Background                                                     1


Status of Training Vehicles for Operation Iraqi Freedom Deployments   3

       Recommendation                                                 6

Appendices

       A. Scope and Methodology                                       9
          Review of Internal Controls                                 10
       B. Prior Audit Coverage                                        13

Client Comments

       U.S. Army Forces Command                                       15
       Department of the Army, Deputy Chief of Staff, G-8             17
Introduction
Objectives
Our overall audit objective was to determine whether U.S. ground forces supporting
Operation Iraqi Freedom (OIF) were receiving the training necessary to meet operational
requirements. Specifically for this project, we determined whether levels of training
equipment at Combat Training Centers (CTCs) were sufficient for ground forces training
in support of OIF. See Appendix A for a discussion of the scope and methodology. See
Appendix B for prior coverage related to the objectives.

Background
The Army has four CTCs to provide combined arms training in a realistic training
environment. They are the Battle Command Training Program at Fort Leavenworth,
Kansas; Joint Multinational Readiness Center 1 at Hohenfels, Germany; Joint Readiness
Training Center (JRTC) at Fort Polk, Louisiana; and the National Training Center (NTC)
at Fort Irwin, California. We limited our scope to NTC and JRTC because Army units
made up the majority of ground forces deploying in support of OIF. The Commanding
General, U.S. Army Forces Command (FORSCOM) is responsible for commanding,
operating, and maintaining NTC and JRTC. FORSCOM must provide the required
materiel for the NTC and JRTC operations.

Training at the Army CTCs is governed by DoD Directive 1322.18, “Military Training,”
September 3, 2004, and Army Regulation 350-50, “Combat Training Center Program,”
January 24, 2003. The Directive 1322.18 states that all personnel and components are to
train on their mission-essential tasks to provide the capabilities that support the
Combatant Commanders. It also requires that training resemble the conditions of actual
operations to the maximum extent possible.

Army Regulation 350-50 further outlines policies, procedures, and responsibilities for
Army-wide management of the CTC program. The regulation requires that CTCs
provide realistic battle training to support wartime operations and that CTC training focus
on wartime mission-essential tasks in a realistic, tactical environment. It also states that
during CTC training, commanders are to fight with the equipment they would expect to
take to war.

U.S. Central Command (CENTCOM) has also issued guidance for all personnel
deploying to the CENTCOM area of responsibility. This guidance, “USCENTCOM
FY08 Joint Sourced Training Requirement,” dated September 15, 2007, specifies
individual and collective training requirements that must be accomplished no more than
6 months before deployment.



1
    Previously called the Combat Maneuver Training Center.


                                                     1
Combat-Related Equipment
From the CENTCOM requirements, we identified three types of combat-related
equipment necessary to complete the CENTCOM unit training requirements: wheeled
vehicles, crew-served weapons, and the Single Channel Ground and Airborne Radio
System (SINCGARS). For a complete listing of the equipment included in the scope of
this audit, see Appendix A.

High Mobility Multipurpose Wheeled Vehicles (HMMWVs) are tactical vehicles that can
be configured in numerous ways to carry troops, armament, or shelter. Several variations
of the HMMWVs include unarmored, armored, and up-armored models. For our audit,
we reviewed unarmored models, such as the M998 and M1097; armored models, such as
the M1025 and M1026; and up-armored models, such as the M1114 and M1151.
Up-armored HMMWVs have increased armor plus blast protection. Because of its blast
protection, the up-armored HMMWV is a key asset in the ongoing security and
stabilization operations in OIF.

Other armored wheeled vehicles include improvised explosive device-resistant or
ambush-protected vehicles and mine detection vehicles, such as the Buffalo (or Mine
Protection Clearance Vehicle), Cougar, Husky, and Meerkat vehicles. For example, the
Buffalos are considered counter-improvised explosive device equipment because they
can identify, detect, and remove live ordnance, using robotic arms and iron claws. Both
NTC and JRTC maintain prepositioned fleets of wheeled vehicles for training.
FORSCOM regulations require units training at the CTCs to use the prepositioned fleet
when possible.

Crew-served weapons are various lightweight and heavy weapons used during combat
operations. They include machine guns, grenade launchers, sniper systems, and remote
weapon systems. Army regulations do not require NTC or JRTC to maintain a
prepositioned stock of crew-served weapons for training. Although NTC maintains a
pool of crew-served weapons, units generally brought their own crew-served weapons to
NTC in order to train on the same weapons they would use in theater. Therefore, we did
not evaluate whether units had enough crew-served weapons for training.

SINCGARS are secure, reliable radio systems with voice and data capability that are used
to support command and control operations. SINCGARS have jam-resistant features and
provide interoperable communications between surface and airborne command and
control assets. SINCGARS sets include radio mounts, antennas, radio kits, and speakers.
Army policy does not address SINCGARS for NTC, but for JRTC, it states that
HMMWVs in the prepositioned fleet at JRTC are to be equipped with mounts for the
SINCGARS. Units, however, are required to bring their own radios. Neither JRTC nor
NTC maintains a prepositioned stock of complete SINCGARS sets. Therefore, we did
not evaluate whether units had enough SINCGARS for training.




                                           2
Status of Training Vehicles for Operation Iraqi Freedom
Deployments
Competing requirements for equipment in theater as well as units being reset 2 for
redeployment have created challenges for CTCs in obtaining critical theater-specific
equipment for training, specifically HMMWVs. The CTCs overcame some challenges
by modifying and substituting HMMWVs to ensure enough vehicles for training. In
addition, the Army recognized issues with outdated HMMWVs, and it has taken steps to
modernize the prepositioned fleets at NTC and JRTC. Although the Army completed
modernization of the prepositioned fleet at NTC in April 2008, it still must complete the
modernization at JRTC to ensure the most realistic and effective training for units
deploying in support of OIF.

Competing Requirements for Theater-Specific
Equipment
In June 2007, the Deputy Commanding General, FORSCOM identified in a
memorandum to the Deputy Chief of Staff, G-3/5/7, challenges with training at the CTCs.
The greatest challenge has been their ability to replicate operational capabilities of the
specific equipment that soldiers would use in theater. This was because of competing
requirements for the same equipment needed in theater and by units being reset for
redeployment. The units training at the CTCs did not have the critical equipment,
specifically armored HMMWVs, necessary to support a full mission rehearsal exercise
because either it was not available in the prepositioned fleets at the CTCs or the units did
not have it at home stations to bring with them.

While FORSCOM provides the required materiel to support NTC and JRTC operations,
Army, Deputy Chief of Staff, G-3 (Army G-3) establishes resources requirements and
priorities for the distribution of equipment to meet mission requirements for the CTCs.
Army, Deputy Chief of Staff, G-8 (Army G-8), as the primary distributor of Army
equipment, is responsible for ensuring the right equipment is fielded to enable units to
train before deployment to Iraq. Army G-8 provides equipment to FORSCOM based on
Army G-3 priorities.

Ensuring Availability of HMMWVs for Ground Forces
Training at Army CTCs
While units brought some HMMWVs for training from their home stations, the CTCs
modified and substituted different models of HMMWVs to resemble those used in
theater. This helped ensure that training for ground forces was as realistic as possible.




2
 Reset is a set of actions that restores equipment to a desired level of combat capability commensurate with
a unit’s future mission. It restores readiness of equipment that has been damaged or worn out and replaces
equipment that has been destroyed.


                                                     3
Using Home Station HMMWVs
Some units brought their HMMWVs to training rather than use the vehicles in the CTC
prepositioned fleet. This was partly because some of the HMMWVs at the CTCs may
not have the equipment necessary to meet the unit’s needs. For example, some units had
special HMMWV requirements for their mission. One digitized infantry unit training at
NTC brought more than 300 HMMWVs from the home station instead of using those in
the NTC prepositioned fleet. This was because their HMMWVs were better equipped
with communications equipment, which was not installed in the HMMWVs at NTC.

Although using HMMWVs from home stations helped the units train on theater-specific
equipment, it was not ideal. FORSCOM incurred costs to ship HMMWVs to the training
centers and risked damaging equipment prior to deployment. The CTCs should have a
prepositioned fleet of HMMWVs that resembles equipment used in theater for units to
use when training for deployment. This would help reduce transportation costs for the
units and help them ensure that their equipment was fully mission-capable at the time of
deployment.

Modification and Substitution of Wheeled Vehicles
To create more realistic training conditions, the Army CTCs modified existing unarmored
wheeled vehicles and used surrogates for up-armored wheeled vehicles. Unarmored
wheeled vehicles have limited training value to deploying units because they have
different handling characteristics and seating configurations than the armored and
up-armored wheeled vehicles used in theater.

The CTCs maintained some up-armored HMMWVs in their prepositioned fleet. As of
January 2008, NTC had 97 M1151s and JRTC had 86. The CTCs also modified existing
unarmored HMMWVs to ensure that there were enough armored HMMWVs for units to
train on before deployment. For example, in FY 2007, NTC modified 144 unarmored
M1097s, an unarmored, soft-top, HMMWV, by adding a hard top, armor, and additional
seating so it would more closely resemble the up-armored M1114 used in theater. By
modifying and substituting HMMWVs for those used in theater, the CTCs were able to
more closely replicate realistic conditions that units would face when deployed in support
of OIF.

For training, in 2006, the CTCs used surrogate Buffalos, which are heavily armored
vehicles used for point, route, and area clearance of mines and explosive devices. The
Buffalo is designed with a V-shaped hull constructed to deflect the force of an explosion
away from the vehicle and reduce vehicle rollover. Surrogate Buffalos are cargo trucks
which are modified to simulate a Buffalo. Both NTC and JRTC used two surrogate
Buffalos for actual ones because no Buffalos were available.




                                            4
Modernizing the Prepositioned Fleets of HMMWVs at
Army CTCs
The Army recognized issues with outdated HMMWVs at Army CTCs, and it has taken
actions to modernize the prepositioned fleet of HMMWVs at NTC and JRTC.
FORSCOM, at the direction of the Army G-3, initiated an assessment of the
prepositioned fleet and developed a two-phased implementation plan to restructure the
NTC prepositioned fleet to best support future training rotations at the NTC. The plan
included eliminating the tracked vehicles from the NTC fleet and rebuilding or
recapitalizing the existing equipment.

According to FORSCOM personnel, FORSCOM G-3 updated the implementation plan
for NTC fleet modernization and added up-armored HMMWVs and counter-improvised
explosive device vehicles to the prepositioned fleet to more closely resemble vehicles
used in theater. Additionally, FORSCOM personnel said that, in February 2007, the
FORSCOM G-3 approved a plan to restructure, reduce, or modernize the JRTC
prepositioned fleet to meet the Army training requirements.

In April 2008, NTC received 203 up-armored HMMWVs, and it currently maintains
300 up-armored HMMWVs along with other HMMWVs. Furthermore, JRTC expects to
receive 214 up-armored HMMWVs, but does not have a delievery date for these vehicles.
To ensure modernization of the JRTC prepositioned fleet, FORSCOM must ensure
delivery of the remaining up-armored HMMWVs for units training for OIF.

Summary
DoD policy states that training on mission-essential tasks to support the Combatant
Commanders must resemble the conditions of actual operations to the maximum extent
possible. To that end, equipment used in training must resemble that used in theater to
ensure that ground forces are adequately trained to support OIF. However, because of
competing equipment requirements in theater and by units being reset for redeployment,
the CTCs encountered challenges in obtaining theater-specific equipment for training,
specifically armored HMMWVs.

Although the CTCs maintained some armored HMMWVs in their prepositioned fleets,
they had to modify unarmored HMMWVs and use them during theater-specific training.
Unarmored HMMWVs have limited training value because they have different handling
characteristics and seating configurations from the up-armored HMMWVs used in
theater. Although modifying these HMMWVs helped the CTCs ensure that units trained
on equipment that was as close to theater equipment as possible, the fleets of
prepositioned HMMWVs should more closely resemble those in theater.




                                           5
The Army recognized that critical equipment at NTC and JRTC was outdated, and it has
implemented a two-phased modernization plan to ensure that the prepositioned fleets of
HMMWVs at NTC and JRTC better resemble the operational capabilities needed in
theater. Although the Army has completed modernization of HMMWVs at NTC, it must
complete the modernization at JRTC to ensure the most realistic and effective training for
units deploying in support of OIF.

Recommendation, Client Comments, and Our Response
Revised Recommendation. As a result of comments from the Deputy Commanding
General/Chief of Staff, U.S. Forces Command, we revised the recommendation to
appropriately reflect the responsibilities of the Army organizations and to clarify the
actions needed to ensure the fleet of up-armored HMMWVs at JRTC is modernized.

We recommend that the Commander, U.S. Army Forces Command, in coordination
with the Army, Deputy Chief of Staff, G-8, obtain and deliver the remaining
up-armored High Mobility Multipurpose Wheeled Vehicles to the Joint Readiness
Training Center to ensure that the fleet of prepositioned vehicles is modernized for
units training to deploy in support of Operation Iraqi Freedom.

U.S. Army Forces Command Comments. The Deputy Commanding General/Chief of
Staff, FORSCOM concurred with comment. He concurred with the report’s conclusion
and the recommended action; however, he stated that FORSCOM does not have the
equipment or the authority to achieve the recommended action. Rather, the Army
G-3/5/7 prioritizes new equipment allocations, and based on these priorities, Army G-8
provides equipment to FORSCOM for distribution to the Army CTCs.

Our Response. The Deputy Commanding General/Chief of Staff’s comments were
responsive to the recommendation. We added the words “in coordination with the Army,
Deputy Chief of Staff, G-8,” and “obtain” to the recommendation because Army G-8
provides equipment to FORSCOM for distribution to the Army CTCs; therefore,
FORSCOM coordination with Army G-8 should ensure the remaining HMMWVs are
obtained and delivered to JRTC.

Department of the Army, Deputy Chief of Staff, G-8 Comments. Although not
required to comment, the Army G-8 concurred with the draft report. The Deputy,
Directorate of Integration, Army G-8, identified the positive actions taken to field up-
armored HMMWVs to NTC and JRTC. The Deputy stated that, since July 2007, the
Army G-8 has provided FORSCOM a total of 1,406 M1151 and 360 M1114 up-armored
HMMWVs to units to enable training on the equipment soldiers will use when deployed.
Furthermore, the Deputy stated that FORSCOM increased the allocation of up-armored
HMMWVs at JRTC and NTC, and that NTC currently has 300 up-armored HMMWVs
and JRTC has 86. The Deputy stated that the Army G-8 Fielding/Distribution Plan
identifies the planned delivery of 1,730 M1151 up-armored HMMWvs to FORSCOM in
FY 2008, and that Army G-8 projects deliveries of the remaining up-armored HMMWVs
as soon as quality control inspections on the wheel hub assembly are completed.


                                             6
Our Response. We consider the Army G-8 comments to be responsive to the revised
recommendation. We agree that the Army G-8 and FORSCOM have taken actions to
deliver up-armored HMMWVs to NTC and JRTC. The Deputy, Directorate of
Integration, Army G-8, indicated that the Headquarters, Department of the Army G-8
Fielding/Distribution Plan reflects the planned delivery of HMMWVs to FORSCOM in
FY 2008, and that the distribution of HMMWVs needed to complete the modernization at
JRTC are in production and scheduled for delivery. Coordination between FORSCOM
and Army G-8 on delivery of the remaining HMMWVs to JRTC should ensure the
modernization of the prepositioned fleet of HMMWVs is completed. No additional
comments are required.




                                         7
Appendix A. Scope and Methodology
We conducted this performance audit from January 2007 through May 2008 in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objectives.
We believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.

Our audit scope encompasses FY 2007 training. We limited our scope to Army Combat
Training Centers, specifically NTC and JRTC, because Army units made up the majority
of ground forces deploying in support of OIF during FY 2007. We reviewed
documentation, including DoD, CENTCOM, FORSCOM, and Military Service
regulations, memorandums, and other training guidance. Publication dates of these
documents ranged from June 1998 through September 2007. We also reviewed
inventories of equipment provided by FORSCOM and the CTCs. We interviewed
officials from the following locations:

U.S. Army Forces Command                    Joint Multinational Readiness Center
First Army Headquarters                     Combat Training Center Program Office
First Army Division East Headquarters       National Training Center
First Army Division West Headquarters       Joint Readiness Training Center
Fort Bliss                                  Combined Arms Center
Fort Dix                                    Marine Air-Ground Task Force Training Command
U.S. Army Reserve Command                   Twentynine Palms
U.S. Army National Guard                    Marine Corps Forces Command
U.S. Army, European Command                 Marine Corps Training and Education Command
Joint Multinational Training Command

We narrowed our scope to theater-specific equipment that is required for CENTCOM
training. Using the FY 2008 USCENTCOM training requirements, we identified
combat-related equipment necessary for unit training, specifically wheeled vehicles,
crew-served weapons, and SINCGARS. See Figure 1 for specific models of the three
types of equipment required for CENTCOM mission rehearsal training.




                                            9
                 Figure 1. Equipment Included in the Audit Scope
Equipment                       Types/Models
Wheeled Vehicles                M998
                                M1025*
                                M1026*
                                M1097
                                M1114*
                                M1151*
                                Buffalo*
                                Husky*
                                Meerkat*
                                Cougar*
Crew-Served Weapons             M249 Squad Automatic Weapon
                                MK46 Squad Automatic Weapon
                                Cal .50 XM312 Lightweight Machine Gun
                                M60 Medium Machine Gun
                                MK43 Medium Machine Gun
                                M240B Medium Machine Gun
                                MK48 Medium Machine Gun
                                MK44/GAU16/M134 Medium Machine Gun
                                Cal .50 M2 Heavy Machine Gun
                                Cal .50 XM218 Heavy Machine Gun
                                MK19-3 Grenade Machine Gun
                                MK47 Grenade Machine Gun
                                M203/M203A1 Grenade Launcher
Single Channel Ground and       Includes radios, mounts, antennas, and installation
Airborne Radio System           kits.
*Denotes armored vehicles

Review of Internal Controls
We determined that the internal controls over the equipment used for OIF mission
rehearsal training at the Army CTCs were sufficient to ensure that units had adequate
equipment at the time of training. The Army CTCs had adequate processes and
procedures in place to ensure that CENTCOM-specific training equipment was available
for units training in support of OIF.

This is the third in a series of three reports that address training for U.S. ground forces
supporting OIF. Report No. D-2008-033, “Training for U.S. Ground Forces at Army
Maneuver Combat Training Centers,” December 28, 2007, identified potential negative
impacts to training due to restructuring of Observer/Controllers at Army maneuver CTCs.
Report No. D-2008-078, “Training Requirements for U.S. Ground Forces Deploying in
Support of Operation Iraqi Freedom,” April 9, 2008, identified that the Services




                                            10
incorporated mandatory CENTCOM training into their predeployment and annual
training requirements. The report also identified that, due to effective information
collection and regularly updated training, the Services provided realistic, theater-inspired
training for ground force units.

Use of Computer-Processed Data
We did not use computer-processed data to perform this audit.




                                             11
Appendix B. Prior Coverage
Prior Coverage
During the last 5 years, the Government Accountability Office (GAO), the Department of
Defense Inspector General (DoD IG), and the U.S. Army Audit Agency have issued
10 reports discussing military training and training requirements. Unrestricted GAO
reports can be accessed over the Internet at http://www.gao.gov. Unrestricted DoD IG
reports can be accessed at http://www.dodig.mil/audit/reports. Unrestricted Army Audit
Agency reports can be accessed at https://www.aaa.army.mil/reports.htm.

GAO

GAO-07-439T, “Defense Logistics: Preliminary Observations on the Army’s
Implementation of Its Equipment Reset Strategies,” January 2007

GAO-06-1109T, “Reserve Forces: Army National Guard and Army Reserve Readiness
for 21st Century Challenges,” September 2006

GAO-06-802, “Military Training: Management Actions Needed to Enhance DoD’s
Investment in the Joint National Training Capability,” August 2006

GAO-06-193, “Military Training: Funding Requests for Joint Urban Operations Training
and Facilities Should Be Based on Sound Strategy and Requirements,” December 2005

GAO-05-548, “Military Training: Actions Needed to Enhance DoD’s Program to
Transform Joint Training,” June 2005

GAO-04-547, “Military Operations: Recent Campaigns Benefited from Improved
Communications and Technology, but Barriers to Continued Progress Remain,”
June 2004

DoDIG
D-2008-078, “Training Requirements for U.S. Ground Forces Deploying in Support of
Operation Iraqi Freedom,” April 9, 2008

D-2008-033, “Training for U.S. Ground Forces at Army Maneuver Combat Training
Centers,” December 28, 2007

Army
Army Audit Agency Report A-2006-0148-FFF, “The Army’s Mobilization Station
Process,” June 28, 2006

Army Audit Agency Report A-2005-0285-FFF, “Reserve Component Readiness
Reporting,” September 27, 2005


                                         13
U.S. Army Forces Command Comments




                 Click to add JPEG file




                                15
Click to add JPEG file




               16
Department of the Army, Deputy Chief of Staff, G-8
Comments




                    Click to add JPEG file




                                   17
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Readiness and Operations Support prepared this report. Personnel of the Department of
Defense Office of Inspector General who contributed to the report are listed below.

Joseph R. Oliva
Robert F. Prinzbach
Timothy M. Wimette
Melissa M. Quealy
Hillary J. Smith
Deanne B. Curry
Michael N. Hepler
Loretta L. (Loughner) Unger
Matthew D. Schwersenska
Marlene Cruz-Freire
Liz Scullin
